    SECURITY OF PERSONNEL
          DATA FILES

                   EXECUTIVE SUMMARY
Based on a request from the House Subcommittee on Oversight and Investigations
(Subcommittee) of the Committee on Financial Services, we reviewed the controls
over personnel data files and documentation. We found that the Commission
generally complied with Office of Personnel Management (OPM) guidance regarding
file organization, although controls over the storage and retrieval of files and the
filing of personnel records can be improved, as described below.



                  SCOPE AND OBJECTIVE
Our objective was to evaluate the adequacy of controls over official personnel files
and personnel documentation. OPM guidelines specify how these files are to be
maintained.
During the review, we interviewed staff in the Office of Administrative and
Personnel Management, identified and tested management controls, and reviewed a
statistical sample of 45 official personnel files, among other procedures. The audit
was performed from May to June 2001 in accordance with generally accepted
government auditing standards.



                            BACKGROUND
The Office of Administrative and Personnel Management (OAPM) maintains the
official personnel file (OPF, SF-66) and related personnel documentation. This file,
which is maintained for every employee, documents significant events during an
employee’s federal employment (e.g., appointment, promotion, transfer, separation).
The folder is in the custody of the employing agency (the Commission), but the Office
of Personnel Management owns it.
OPM has established security requirements and retention standards for the
permanent records in the file. According to the guidance, agencies should secure
personnel records against unauthorized access by keeping them in locked metal file
cabinets or in a secure room.
                                                                                                  2




OPM categorizes personnel file documents as either long term or temporary. Long-
term records such as the Notification of Personnel Action (SF-50) protect the legal
and financial rights of the Government and the employee. They remain in the file
for the life of the folder, usually 115 years from the employee’s date of birth.
Personnel actions are processed through the Department of Interior’s (DOI) Federal
Personnel and Payroll System (FPPS). 1
Temporary records include offer letters, requests for personnel actions (SF-52), and
employee address forms. These records are discarded when an employee transfers to
another agency or leaves federal service.
OPM procedures require permanent documents to be placed in order by effective
date on the file’s right side. Temporary documents are placed on the left side of the
file. The cover of the file lists the employee’s name, social security number, and date
of birth.
A recent audit by the Department of Commerce (DOC) Office of Inspector General
found that many forms documenting personnel actions were not in the DOC
employees’ personnel files and that a number of the files could not be located. In
response, the House Subcommittee asked our office and others to perform a similar
review of the controls over personnel files and documents.



                                  AUDIT RESULTS
We found that the Commission generally complied with OPM guidance regarding
file organization. The cover contained the required information, and permanent and
temporary documents were on the correct side.
As described below, we identified improvements to the security of files, use of sign-
out cards, and the filing of personnel documents.


FILE ROOM SECURITY
The OAPM file room is locked at night, but not during the day. Personnel files are
maintained in an unlocked power file within the room, which also contains assorted
personnel forms and a paper shredder.
According to OAPM, personnel assistants assigned to the file room closely monitor
all activity in the room. Only the assistants are supposed to use the shredder.
However, if the assistants leave the room, personnel files could be taken without a
charge card being completed.
OAPM indicated that it would place a sign near the file room door indicating that
only OAPM staff are allowed in the room. It will notify its staff that only the
personnel assistants may use the shredder.


1   The Commission contracts with DOI for certain personnel and payroll services.



SECURITY OF PERSONNEL DATA FILES--(AUDIT 338)                                       AUGUST 13, 2001
                                                                                                                3



           Recommendation A
           To further enhance security, OAPM should require the assistants to lock the
           file room whenever it is unattended.


SIGN-OUT CARDS
OAPM procedures require completion of a sign-out card when staff remove a
personnel file. The sign-out card remains in the power file cabinet until the file is
returned.
Of our representative sample of 45 files, one of the files was not available at the time
of our test, and no sign-out card was in the cabinet. Without a sign-out card, the
location of the file could not be readily determined. During a subsequent check, we
found that the missing folder had been returned. 2
We also identified one instance in which an employee signed out a file for several
months, reducing file security. An OAPM personnel specialist also indicated that
sometimes several staff used a signed out personnel file, thereby reducing
accountability.

           Recommendation B
           OAPM should remind its staff to complete a sign-out card whenever a file is
           removed from the file room; to promptly return personnel files to the file
           room; and to avoid sharing signed-out files.

           Response: OAPM indicated that it would notify its staff of the sign-out
           procedures for OPFs.

           Recommendation C
           OAPM should periodically review sign-out cards to verify that files are being
           returned promptly.
           Response: OAPM indicated that it would require the personnel assistants to
           file sign-out cards in a box. The assistants will check the box daily, and
           follow-up with any OAPM staff having OPFs for more than two weeks.


FILING OF PERSONNEL DOCUMENTATION
To test filing of personnel documentation, we selected a representative sample of 308
personnel action forms (SF-50s) processed by FPPS after January 2, 1999. The
forms related to our sample of 45 personnel files.
A total of seven forms (approximately 2%), which were dated about four months
prior to our test, had not yet been filed.


2   In an ongoing audit of controls over staff background investigations, we similarly found one file missing
     without a sign-out card.



SECURITY OF PERSONNEL DATA FILES--(AUDIT 338)                                            AUGUST 13, 2001
                                                                                      4



      Recommendation D
      OAPM should develop review procedures to ensure that personnel
      documentation is timely filed.
      Response: OAPM indicated that the personnel assistant will be required to
      retrieve the OPF to process each personnel action, and will file the SF-50 in
      the OPF at that time. When a large batch of SF-50s is processed, the
      assistants will file all personnel action forms within two weeks, with
      assistance from other OAPM staff.


GUIDANCE ON TEMPORARY RECORDS
As stated in the Background, OPM has developed retention standards for permanent
personnel records. The employing agency is responsible for developing retention
standards for its temporary records. The Commission has not yet developed
guidance on this issue, which would help ensure consistent treatment of these
records.

      Recommendation E
      OAPM should develop guidance on retention standards for temporary
      personnel records.
      Response: OAPM indicated that temporary records are purged when
      employees separate. Temporary records include employment offer letters,
      checklists of personnel forms completed and returned, receipt of redeposit
      forms, notes of benefit problems and resolutions, personnel action requests
      (SF-52), and other miscellaneous documents.




SECURITY OF PERSONNEL DATA FILES--(AUDIT 338)                     AUGUST 13, 2001
